Audit of the SEC’s Physical Security Program




                                        August 1, 2014
                                        Report No. 523
                                           UNITED STATES
                            SECURITIES AND EXCHANGE COMMISSION
                                       WASHINGTON, D.C. 20549
    OFFICE OF
INSPECTOR GENERAL




                                      MEMORANDUM

                                          August 1, 2014

To:           Jeffery Heslop, Chief Operating Officer, Office of the Chief Operating Officer

From:         Carl W. Hoecker, Inspector General, Office of Inspector General

Subject:      Audit of the SEC’s Physical Security Program, Report No. 523

Attached is the Office of Inspector General’s (OIG) final report detailing the results of our audit
of the U.S. Securities and Exchange Commission’s (SEC) physical security program. The
report contains nine recommendations for corrective action that, if fully implemented, should
strengthen the SEC’s physical security controls.

On July 7, 2014, we provided agency management with a draft of our report for review and
comment. In the July 30, 2014, response, management fully concurred with eight of our nine
recommendations and partially concurred with the remaining recommendation. As a result of
management’s response, we revised Recommendations 6 and 8. Management’s complete
response is reprinted as Appendix VII in the final report.

Within the next 45 days, please provide the OIG with a written corrective action plan that
addresses the recommendations. The corrective action plan should include information such
as the responsible official/point of contact, timeframe for completing required actions, and
milestones identifying how your office will address the recommendations.

We appreciate the courtesies and cooperation extended to us during the review. If you have
questions, please contact me or Rebecca L. Sharek, Deputy Inspector General for Audits,
Evaluations, and Special Projects.

Attachment


cc:     Mary Jo White, Chair
        Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
        Luis A. Aguilar, Commissioner
        Paul Gumagay, Counsel, Office of Commissioner Aguilar
        Daniel M. Gallagher, Commissioner
        Benjamin Brown, Counsel, Office of Commissioner Gallagher
        Michael S. Piwowar, Commissioner
        Mark Uyeda, Counsel, Office of Commissioner Piwowar
        Kara M. Stein, Commissioner
        Robert Peak, Advisor to the Commissioner, Office of Commissioner Stein
Anne K. Small, General Counsel, Office of the General Counsel
Timothy Henseler, Director, Office of Legislative and Intergovernmental Affairs
John J. Nester, Director, Office of Public Affairs
Barry Walters, Director/Chief FOIA Officer, Office of Support Operations
Cedric Drawhorn, Assistant Director, Chief of Security Services, Office of Support
   Operations
Cedric Watson, Branch Chief, Physical Security Operations, Office of Security Services,
   Office of Support Operations
Thomas A. Bayer, Director, Office of Information Technology
Pamela C. Dyson, Deputy Director, Office of Information Technology
Todd K. Scharf, Associate Director, Chief Information Security Officer, Office of
   Information Technology
Vance Cathell, Director, Office of Acquisitions
Michael Whisler, Assistant Director, Office of Acquisitions
Paul Levenson, Regional Director, Boston Regional Office
Lynn Austin, Assistant Regional Director, Boston Regional Office
Andrew M. Calamari, Regional Director, New York Regional Office
Robert Keyes, Associate Regional Director, New York Regional Office
Jina L. Choi, Regional Director, San Francisco Regional Office
Darlene L. Pryor, Management and Program Analyst, Office of the Chief
   Operating Officer
U.S. SECURITIES AND EXCHANGE COMMISSION                                               OFFICE OF INSPECTOR GENERAL



Executive Summary                                  Audit of the SEC’s Physical Security Program
                                                   Report No. 523
                                                   August 1, 2014

Why We Did This Audit                          What We Found
The Government Accountability Office           We visited the SEC’s headquarters, three of its regional offices,
has designated Federal real property           and its two data centers, and obtained information from personnel
management as a governmentwide high-           at the remaining SEC locations. From our observations and the
risk area due, in part, to the continued       information we obtained, we determined that improvements are
challenge of protecting Federal facilities.    needed in the SEC’s physical security controls. Specifically, we
At the U.S. Securities and Exchange            identified vulnerabilities relating to
Commission (SEC), the Office of
Security Services (OSS) is responsible         •    the agency’s facility risk assessments and facility security
for the physical security and safety of             plans;
SEC staff and facilities at the agency’s
11 regional offices, 2 data centers, and       •    control of SEC-issued badges;
headquarters in Washington, D.C. In
2011 and 2012, the Office of Inspector         •    some access-controlled doors; and
General (OIG) investigated physical
                                               •    monitoring of the SEC’s physical access control and intrusion
security violations, and recommended a
                                                    detection systems.
review of the agency’s physical security
program. As a result, the OIG contracted       In addition, the SEC’s security system contractor did not always
with Ollie Green & Company, CPA’s, LLC         notify the OSS of alarm conditions. Finally, one of the SEC’s
(referred to as “we” in this report) to        data centers lacked sufficient security measures to prevent
assess the SEC’s policies, procedures,         unauthorized, undetected, and undocumented access to key
and controls for safeguarding personnel        information technology assets.
and preventing unauthorized access to
the agency’s facilities.                       During the audit, management took action to address some of
                                               the conditions we observed; however, the conditions occurred
What We Recommended                            because the OSS did not adequately manage and administer
To provide reasonable assurance that the       the SEC’s physical security program. Specifically, we found that
SEC’s policies, procedures, and controls
effectively safeguard personnel and            •    the OSS did not establish effective policies and procedures to
prevent unauthorized access to the                  address required Federal physical security standards;
agency’s facilities, we made nine
recommendations for corrective action.         •    the OSS did not ensure that physical security program internal
The recommendations address policies                controls were measured and tested;
and procedures; risk assessments; facility
                                               •    security specialists’ competencies did not always match their
security plans; issuance of badges;
                                                    assigned roles and responsibilities; and
access-controlled doors; contractor
performance; data center controls; and         •    the OSS outsourced security systems responsibilities to a
training. Management concurred with                 contractor but did not provide sufficient oversight to monitor
eight of the recommendations and                    the contractor’s performance.
partially concurred with one
recommendation. The recommendations            The results of our audit indicate that action is required to establish
will be closed upon completion and             a comprehensive physical security program and that doing so will
verification of appropriate corrective         reduce the risk to SEC personnel, facilities, and property.
action. Because this report contains
sensitive information about the SEC’s
physical security program, we are not
releasing it publically.
                                              For additional information, contact the Office of Inspector General at
                                              (202) 551-6061 or www.sec.gov/about/offices/inspector_general.shtml.
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


    To Report Fraud, Waste, or Abuse, Please Contact:
       Web:               www.reportlineweb.com/sec_oig

       E-mail:            oig@sec.gov

       Telephone:         (877) 442-0854

       Fax:               (202) 772-9265

       Address:           U.S. Securities and Exchange Commission
                          Office of Inspector General
                          100 F Street, N.E.
                          Washington, DC 20549-2736


    Comments and Suggestions
       If you wish to comment on the quality or usefulness of this report or suggest ideas for
       future audits, please contact Rebecca Sharek, Deputy Inspector General for Audits,
       Evaluations, and Special Projects at sharekr@sec.gov or call (202) 551-6061.
       Comments, suggestions, and requests can also be mailed to the attention of the
       Deputy Inspector General for Audits, Evaluations, and Special Projects at the
       address listed above.




    REPORT NO. 523                                                               AUGUST 1, 2014
